OIG Investigative Reports,  Tallahassee, FL.  February 05, 2013 - Three Indicted In FAMU Computer Hacking Case
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of FLORIDA
NEWS
Three Indicted In FAMU Computer Hacking Case
FOR IMMEDIATE RELEASE
February 05, 2013
TALLAHASSEE, FLORIDA – Carl Joseph Coutard, 21, and Carliss Pereira, 22, both of Miami, Florida, and Christopher J. Wright, 22, of Fort Lauderdale, have been charged with conspiring to access the iRattler computer system at the Florida A&M University (FAMU) in order to divert financial aid monies to themselves.   The indictment was announced today by Pamela C. Marsh, U.S. Attorney for the Northern District of Florida.
The eight-count indictment alleges that between March and November 2010, the three men illegally used the personal identifying information of their fellow FAMU students, without the students' permission, to access the students' financial aid information in the iRattler system.  As alleged in the indictment, the defendants then changed the students' bank account and routing information without the students' knowledge or consent.  When the students were due to receive financial aid refunds, the defendants would divert these monies to bank accounts the defendants had fraudulently opened in the students' names.
In addition to conspiracy, Wright is charged with one count of using an unauthorized access device, Coutard and Pereira are charged with possession of more than 15 unauthorized access devices, and Coutard is charged with obtaining information from a protected computer without authorization.
The unauthorized access device offenses are punishable by up to 10 years in prison.  The computer intrusion and conspiracy offenses each carry a maximum sentence of 5 years in prison.
All three men are also charged with aggravated identity theft, which carries a mandatory term of 2 years in prison, which must be served consecutively to any other sentence.
U.S. Attorney Marsh praised the work of the Federal Bureau of Investigation, the FAMU Police Department, the United States Department of Education, the United States Secret Service, and the Florida Department of Law Enforcement, whose joint investigation led to the indictment in the case.
The case is being prosecuted by Assistant U.S. Attorney Karen Rhew-Miller.
An indictment is merely an allegation by a grand jury that a defendant has committed a violation of federal criminal law and is not evidence of guilt.  All defendants are presumed innocent and entitled to a fair trial, during which it will be the government's burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Last Modified: 06/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov